<html>
<title> - ADDRESSING THE BACKLOG IN THE FEDERAL EMPLOYEE RETIREMENT PROCESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
               ADDRESSING THE BACKLOG IN THE FEDERAL 
                   EMPLOYEE RETIREMENT PROCESS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                   U.S. POSTAL SERVICE AND THE CENSUS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                           Serial No. 113-162

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
           


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                               ___________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
93-844 PDF                    WASHINGTON : 2015                      
                      
                     
 ______________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bddacdd2fddec8cec9d5d8d1cd93ded2d093">[email&#160;protected]</a>  

              
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

 Subcommittee on Federal Workforce, U.S. Postal Service and the Census

                   BLAKE FARENTHOLD, Texas, Chairman
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts, 
TREY GOWDY, South Carolina               Ranking Minority Member
DOUG COLLINS, Georgia                ELEANOR HOLMES NORTON, District of 
RON DeSANTIS, Florida                    Columbia
                                     WM. LACY CLAY, Missouri
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2014................................     1

                               WITNESSES

Mr. Kenneth J. Zawodny Jr., Associate Director of Retirement 
  Services, U.S. Office of Personnel Management
    Oral Statement...............................................     4
    Written Statement............................................     6
Ms. Valerie C. Melvin, Director, Information Management and 
  Technology Resource Issues, U.S. Government Accountability 
  Office
    Oral Statement...............................................    12
    Written Statement............................................    14
Mr. Richard G. Thissen, President, National Active and Retired 
  Federal Employees Association
    Oral Statement...............................................    32
    Written Statement............................................    34


   ADDRESSING THE BACKLOG IN THE FEDERAL EMPLOYEE RETIREMENT PROCESS

                              ----------                              


                      Wednesday, December 10, 2014

                  House of Representatives,
    Subcommittee on Federal Workforce, U.S. Postal 
                           Service, and the Census,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:28 p.m., in 
room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
(chairman of the subcommittee) presiding.
    Present: Representatives Farenthold and Lynch.
    Staff present: Melissa Beaumont, Assistant Clerk, Jennifer 
Hemingway, Deputy Policy Director; James Robertson, Senior 
Professional Staff Member; Andrew Shult, Deputy Digital 
Director; Peter Warren, Legislative Policy Director; Una Lee, 
Minority Counsel; and Juan McCullum, Minority Clerk.
    Mr. Farenthold. The committee will come to order.
    As is traditional with this committee, before we start out, 
we will read the Oversight Committee's mission Statement.
    We exist to secure two fundamental principles: First, 
Americans have a right to know the money Washington takes from 
them is well spent. And, second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
those rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their government. We will work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    I will now recognize myself for a short opening Statement.
    The Office of Personnel Management, OPM, is responsible for 
administering the Federal retirement program, which provides 
monthly pension checks to 2 1/2 million retired Federal workers 
and their survivors.
    Counter to private-sector practice, where software and 
computer systems apply complex business rules to unique data, 
recent annuitants continue to wait their turn in a backlog of 
claims before receiving their earned pensions. For individuals 
applying for disability retirement and survivors applying for a 
lump-sum death benefit, the wait is particularly long.
    I remain puzzled why processing a Federal retirement 
package remains paper-based while products such as TurboTax 
help millions file their complicated tax returns quickly and 
electronically.
    Since 1987, the OPM has failed at its attempts to bring a 
modern approach to how the Federal Government pays Federal 
workers and their pensions. In February, the OPM issued a 
Strategic Information Technology Plan that discusses a 
paperless system, but, in reality, it seems that the system, if 
successfully implemented, will maybe result in less paper, not 
be paperless.
    I applaud the hard work that has been put in in the past 
few years under your leadership, Mr. Zawodny. However, I am 
troubled by the fact that this reduction, cutting the backlog 
in half, relies on hiring additional staff to operate a 
patchwork paperwork facility with more than 80-plus legacy 
systems.
    You all got $2.6 million to improve retirement system 
processes but have only spent $800,000. I would like to believe 
that that is a result of good, conservative financial 
management, but I am afraid that the strategic technology plan 
is short on detail, lacks detailed information.
    There are implementation schedules that stakeholders, 
including the taxpayer, can use to monitor the progress, and I 
am looking forward to hearing whether the OPM is ready and 
capable of achieving true reform and getting some technology in 
there.
    I realize and I have said many times that the Federal 
Government has trouble computing its way out of a paper bag. 
But some of the systems that I have read about and heard about 
in the OPM were stuff submitted electronically, printed out, 
processed, rescanned. It really seems like there is a great 
opportunity for improving efficiency, getting folks the money 
that they have earned in a timely fashion, and cutting down on 
the expense and time associated with processing.
    I will now recognize my ranking member, Mr. Lynch, for his 
opening Statement.
    Mr. Lynch. Thank you very much, Mr. Chairman, for holding 
this hearing to examine the progress made by the Office of 
Personnel Management in addressing the backlog and timeliness 
in the processing of Federal retirement claims since the last 
time we held a hearing on this issue back in 2013.
    These last few years have been especially hard on Federal 
employees, who have had to endure an onslaught of attacks from 
some Members of Congress on their pay, benefits, and due-
process rights. So I am certainly pleased that Chairman 
Farenthold and I can agree that Congress and OPM must ensure 
that our Federal employees receive timely and accurate pension 
payments upon their retirement. Our Nation's dedicated public 
servants deserve no less. And the chairman and I are both 
sensitive to the financial hardships that a backlog and long 
delays in claims processing may cause and have caused some 
Federal retirees.
    I want to commend OPM for successfully achieving its 2012 
strategic plan goal of reducing the retirement claims backlog 
to a manageable level, which was earlier 60,000 claims 
backlogged in January 2012 to just 14,000 claims at the 
beginning of this month.
    I know the sequestration made that accomplishment harder to 
achieve, and a large increase in retirement application 
resulting from the early retirement and buyout offers from the 
Postal Service--my sister was one of those retirees. She took 
the early out. She didn't help matters either.
    While I believe that OPM has made great strides in reducing 
its backlog, it still falls short of the goal to process 90 
percent of new retirement claims within 60 days, having only 
reached 83 percent. I know that progress has been made. As of 
last month, it remained at 83 percent, but we've got to work on 
that.
    And while I think OPM's incremental approach to modernizing 
its retirement claims makes sense, it appears that the agency 
is making much slower progress on this front as we go forward. 
But, again, the effect of the early retirement issue with the 
Post Office, that added a historically large amount of claims 
at one point, and also the effect of sequestration might have 
exacerbated the problem beyond what we see here.
    OPM has noted that implementation of many of the IT 
initiatives spelled out in OPM's February Strategic Information 
Technology Plan are dependent upon the receipt of sufficient 
funding. And I would like to explore in this hearing the 
support that OPM would need from Congress to ensure that it can 
modernize its retirement claim systems. I believe that the 
long-term sustainability of OPM's progress will depend heavily 
upon a transition from a paper-based, manual process to an 
electronic process.
    Thank you, Mr. Chairman. I appreciate the opportunity to 
revisit the status of OPM's retirement claims processing, and I 
look forward to hearing from our panel members.
    Thank you. I yield back.
    Mr. Farenthold. Thank you very much.
    Mr. Farenthold. Members will have 7 days to submit their 
opening Statements and extraneous material for the record.
    Mr. Farenthold. I would now like to take this opportunity 
to welcome our witnesses.
    Ken Zawodny serves as the Associate Director of Retirement 
Services at the U.S. Office of Personnel Management.
    Welcome, sir.
    Donna Seymour serves as Chief Information Officer at the 
U.S. Office of Personnel Management.
    Ms. Seymour, welcome.
    Valerie Melvin serves as the Director of Information 
Management and Technology Resource Issues at the GAO.
    And Richard Thissen serves as president of the National 
Active and Retired Federal Employees Association.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify.
    Would you all please rise and raise your right hand?
    Do you solemnly swear or affirm that the testimony you're 
about to give this committee will be the truth, the whole 
truth, and nothing but the truth?
    Let the record reflect that all witnesses answered in the 
affirmative.
    Please have a seat.
    We do have votes scheduled to come up. I would like to get 
through as much of this as we can. We may get it finished 
before votes if the House runs typically behind schedule, as it 
normally does. If not, we may have to leave for votes and then 
come back.
    But in order to facilitate that, let's make sure we've got 
some time for discussion. We will follow the 5-minute rule, let 
you all give your 5-minute summary of your written testimony, 
and then we'll then proceed to questions.
    So we'll get started with Mr. Zawodny.

                       WITNESS STATEMENTS

              STATEMENT OF KENNETH J. ZAWODNY, JR.

    Mr. Zawodny. Thank you. Good afternoon, Chairman 
Farenthold, Ranking Member Lynch, and members of the 
subcommittee. Today I would like to----
    Mr. Farenthold. Can you come a little closer to the 
microphone? You've kind of got to get up really close to be 
heard.
    Mr. Zawodny. Today I would like to discuss the progress of 
OPM in reducing the inventory of the Federal retirement claims 
as well as further automating the claims process.
    OPM is responsible for processing over 120,000 retirement 
applications a year from all 3 branches of the government and 
dozens of independent agencies. Aside from processing new 
incoming retirements, OPM also handles post-retirement human-
resource functions for 2.5 million Federal annuitants, 
survivors, and their family members.
    In January 2012, OPM released and began implementation of a 
retirement strategic plan to reduce the inventory of retirement 
claims, and we remain on track and focused on the goal of 
adjudicating 90 percent of those claims within 60 days. Today 
the retirement claims inventory is down to about 9,500 cases 
from January--from February 2014. We are now processing 83.4 
percent of those claims in under 60 days.
    Director Archuleta is committed to improving retirement 
services at OPM. There are three areas targeted for reform: 
process, customer service, and IT solutions.
    The process team is focused on identifying opportunities to 
gain efficiency in the processes pertaining to the post-
adjudicative workload. Process improvements will lead to more 
timely actions and a reduction in the potential for improper 
payments. We have mapped out and evaluated current processes, 
and we review the data collected in order to identify 
improvement opportunities.
    Additionally, the customer service team is studying current 
processes and customer behavior. The team has made multiple 
visits to different RS facilities and conducted numerous 
interviews with current and future retirees. Based on the 
research, we are focusing our attention on OPM's online 
services. Interview results show that customers who utilize 
retirement services' online services are very satisfied with 
those particular services and activities. The key is to drive 
more people to the online services and to further improve those 
services and experiences for the customers.
    We also continue to review and improve our call center 
support. Recent statistics show that the average speed to 
answer calls for the last quarter of Fiscal Year 2014 was 
improved by 30 percent. Our call-handling volume has increased 
to 41 percent, and we have been able to reduce the amount of 
busy signals by 91 percent.
    We have also reached out to customer service agencies, like 
the Social Security and Department of Defense, who have similar 
annuitant populations to exchange information and ideas on how 
to better serve all of our customers.
    Fulfilling a promise she made during her confirmation 
hearing, Director Archuleta produced a strategic IT plan for 
OPM within 100 days of becoming the Director. In accordance 
with this plan, our goal is to deliver iterative capability 
that will yield near-term results and can be built upon over 
time as we continue to work toward a full automation solution. 
We are currently focused on procuring a case management system 
to track business workflows, which increase transparency and 
efficiencies. This would create the foundation for a fully 
automated system of the future.
    In Fiscal Year 2015, we plan to release a solicitation for 
award of a case management system and begin configuration of 
that tool. Our effort will include an online retirement 
application that will help agencies ensure they submit a 
completed retirement application thoroughly and make 
information more accessible to personnel planning for their 
retirement.
    Currently, we will complete a pilot project with payroll 
service providers for accepting payroll data from shared 
service centers using a standardized data format. Throughout 
2015 and 2016, we will automate further functions currently 
performed by the mainframe, such as annuity calculations and 
routines to send payment information to the Treasury.
    Transitioning from the mainframe to a distributed computing 
environment will save money and increase our ability to make 
changes to the system in a timely and efficient manner. OPM has 
made significant progress in reducing retirement claims 
inventory and modernizing our retirement process. We expect to 
continue this process; however, we understand that challenges 
do remain.
    Thank you for the opportunity to testify today, and I look 
forward to answering any questions you may have.
    Mr. Farenthold. Thank you very much.
    [Prepared Statement of Mr. Zawodny and Ms. Seymour 
follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Mr. Farenthold. Now, Ms. Seymour, was your Statement 
included with Mr. Zawodny, or do you have some additional--
anything additional to add?
    Ms. Seymour. Mine was included. Thank you.
    Mr. Farenthold. Thank you.
    Ms. Melvin, you are up.

                 STATEMENT OF VALERIE C. MELVIN

    Ms. Melvin. Good afternoon, Chairman Farenthold, Ranking 
Member Lynch, and members of the subcommittee. Thank you for 
inviting me to testify on OPM's system for processing Federal 
employee retirement benefits.
    As we all know, OPM has a critical mission to serve current 
and retired Federal employees, and information technology is 
integral to this responsibility.
    As agreed with your staff, my testimony today summarizes 
findings that we have previously reported on OPM's efforts and 
challenges to modernize systems supporting the retirement 
process and also briefly speaks to its current plans for 
acquiring new technology. In addition, based on other work that 
we have undertaken, I will briefly highlight key IT acquisition 
success factors that, based on selected agencies' experiences, 
have proven helpful in carrying out IT acquisitions.
    In three reports that we have previously issued, we noted 
that OPM's attempts to modernize its systems were hindered in 
large measure by ineffective IT planning, management, and 
execution. Weak project management, to include ineffective 
system testing, the absence of a process to identify and 
mitigate project risks, and the lack of a fully functioning 
oversight body to monitor the modernization projects were among 
a number of factors that contributed to various stops and 
starts since 1987 and then to the agency's termination of the 
retirement modernization program in February 2011.
    In January 2012, the agency released a plan describing 
targeted incremental steps that would include making IT 
improvements to automate retirement application processing. It 
Stated a goal, as you have already mentioned, of processing 90 
percent of new claims within 60 days by July 2013 but later 
extended the date to July 2014.
    More recently, OPM has indicated that it is focused on 
acquiring a case management system and ultimately transitioning 
to a paperless system that will authorize accurate retirement 
benefits on the day they are due. It also plans other 
initiatives to incrementally improve retirement processing. We 
have not yet had an opportunity to closely examine these 
planned initiatives.
    Nonetheless, while it is making these plans and has 
reported progress toward its processing goal, OPM's 
modernization success will depend on having a disciplined and 
effective approach to managing IT investments, one that, among 
other things, enables the agency to clearly describe how it 
intends to carry out its modernization projects, to include the 
projected timeframes and financial and other resources needed 
to accomplish the modernization and definite measures of its 
progress toward doing so.
    In other work, we have reported on common factors critical 
to successful IT investment acquisitions that were undertaken 
by selected agencies. The agencies identified nine factors 
helpful to their achieving cost, schedule, scope, and 
performance goals. These included active engagement of program 
stakeholders throughout the acquisition process and having 
program staff with the necessary knowledge and skills regarding 
acquisition and procurement processes, contract monitoring, and 
other areas of program management.
    As OPM moves forward with its case management and other 
planned initiatives, applying these critical IT acquisition 
success factors, in conjunction with the industry and 
government best practices that we have stressed, presents 
opportunities for the agency to engage in more effective 
management of its investments. And, in doing so, the agency may 
better position itself to avoid mistakes of the past and 
overcome a long history of unsuccessful attempts to modernize 
the retirement system.
    This concludes my oral Statement, and I would be pleased to 
respond to your questions.
    Mr. Farenthold. Thank you very much.
    [Prepared Statement of Ms. Melvin follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
           
    Mr. Farenthold. Mr. Thissen? And you are going to need to 
move that microphone right out in front of your mouth, as well.
    Mr. Thissen. OK. Is this good?
    Mr. Farenthold. Perfect.

                 STATEMENT OF RICHARD G. THISSEN

    Mr. Thissen. Good afternoon, and thank you for inviting me 
to testify.
    Over the last several years, Congress recognized there were 
issues with the processing of Federal retirement claims and 
held hearings drawing attention to the problem. As president of 
the association representing those directly affected, I thank 
the committee for continuing to address this issue.
    OPM developed a strategic plan to improve retirement claims 
processing, implemented the plan as intended, and it has 
worked. The inventory of pending retirement claims is now 
roughly 14,000, which is in line with projections. OPM set a 
goal of processing 90 percent of the claims within 60 days. At 
83 percent in November, OPM is not meeting that goal but is 
coming close. However, 200 claims are over 180 days old. While 
this number is decreasing, over 6 months is too long.
    In advance of this hearing, we asked NARFE members for 
feedback on their experience with the retirement claims 
procedure, specifically from those who retired within the last 
2 years. Contrary to the avalanche of complaints we heard 3 
years ago, the responses from hundreds of NARFE members were 
overwhelmingly positive. Nearly 75 percent of the responses we 
received were favorable and praised the customer service they 
received from OPM.
    In most cases, they received their full annuity check--they 
reported their full annuity check came 3 to 4 months following 
their separation from service. A large number of those who 
reported quick processing noted they received timely 
information and assistance from their agencies. Proper due 
diligence on the part of the employee prior to retiring, such 
as attendance at preretirement seminars, also contributed.
    Unfortunately, the responses we received from members who 
were not satisfied indicated their claims had been in the 
process anywhere from 6 months to more than 2 years. These 
individuals, not surprisingly, are very unhappy and tell 
lengthy stories critical of OPM.
    While OPM reports that the average call wait time is 10 
minutes, NARFE members still report higher wait times and an 
inability to get through altogether.
    Overall, things have greatly improved, but there is still 
room for further improvement.
    While OPM bears the responsibility for processing the 
claims, a Federal employee's transition into retirement starts 
with the employing agency. Unfortunately, the governmentwide 
error rates for retirement submissions remain unacceptable. 
Although publishing the results has led to pressure on agencies 
to improve, there was no significant improvement from 2012 to 
2014. Agencies should be performing better. Reducing the error 
rate would improve processing at OPM, especially as it bears 
the brunt of retirees' frustration with delayed claims.
    OPM must work to enter the electronic age and eventually 
end the process of paper records being physically driven up and 
down the east coast. We realize this is no easy feat. The 
process of transitioning into retirement varies too widely 
among employing agencies. A standardized process and use of 
electronic records would go far in ensuring the backlog will 
become a distant memory. OPM's IT strategic plan aims to do 
just that.
    While incremental process on these initiatives is being 
made, the timeline for completion and how OPM plans to be held 
accountable for keeping on schedule is unclear. It is also 
unclear how funding for these new initiatives will be obtained, 
particularly during these days of sequestration.
    In Fiscal Year 2014, OPM received $2.6 million intended to 
be directed toward modernizing the retirement processing 
system. This money came directly from the Civil Servant 
Retirement and Disability Trust Fund, money that Federal 
employees have contributed their entire careers in return for 
retirement stability. These funds should not be used lightly or 
taken for granted. It is unclear how this money was spent, and, 
as such, OPM should provide additional details regarding this 
plan.
    In the future and consistent with past practice, we urge 
that financing for IT modernization come from the general fund 
and not the trust fund. We strongly support efforts by OPM to 
modernize its retirement services to improve efficiency and 
better serve the Federal retirees. However, we remain skeptical 
of drawing additional resources from the trust fund simply 
because Congress is unwilling to provide adequate financing.
    Thank you again for providing me the opportunity to share 
NARFE's views. I am happy to answer any questions you may have.
    Mr. Farenthold. Thank you very much.
    [prepared Statement of Mr. Thissen follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
           
    Mr. Farenthold. And we will get under way with questions. I 
appreciate everybody staying within their time limit.
    Mr. Zawodny, at our last hearing, you said that by July 
2013 OPM would have been able to process 90 percent of its 
cases within 60 days. You are moving in the right direction, 
but we are still short of the goal, with 83.4 percent of new 
retirement claims now processed in 60 days.
    Why haven't we gotten to where we need to be?
    Mr. Zawodny. Well, thank you, Mr. Farenthold.
    The truth of the matter is that we have made great progress 
in reducing that inventory down to a manageable level. And 
while that near 84 percent of the cases are being done in under 
60 days and that average time of being completed is roughly 36 
days, there are sill some older cases that we are trying to 
work through.
    The one thing that we did not quite understand when we had 
those 60,000 cases that Mr. Lynch mentioned was the complexity 
of some of those cases that would be processed. As we have 
gotten our inventory down to a manageable steady State, we now 
understand more the complexity of the cases and what is needed 
with regard to missing information, such as service credit or 
pay information, that is needed to finalize the case.
    And as we have worked better to understand that, we are 
able to drive up the amount of cases that we process in under 
60 days, and we'll continue to do so.
    Mr. Farenthold. Well, we've got an issue, though, with the 
number of workers eligible to retire. It suggests a potential 
for an upswing in pending claims in the coming years. How are 
you all preparing for this challenge?
    Mr. Zawodny. Just as we've prepared for all the other 
challenges regarding processing retirement. We continue to 
replace individuals who have retired or left the agency. We've 
cross-trained individuals to ensure that they understand 
different disciplines of the work to be conducted so that when 
we have a surge in one area we can move additional resources in 
there to try to drive that workload down.
    The other thing that we do is work closely with the 
agencies to try to improve their processing of the cases on 
their end, to educate employees better on their retirement 
applications so that when they come to us they can be fully 
worked as quickly as possible.
    Mr. Farenthold. All right.
    Then, also, while there has been some progress--and I 
applaud that--some Federal workers continue to wait 6 months or 
longer for their pensions. OPM's backlog of pending disability, 
retirement, and lump-sum death benefit determinations is also 
of concern.
    It is my understanding you all have 29 staff assigned to 
lump-sum benefit claims and 66 assigned to disability. Is this 
enough?
    Mr. Zawodny. The lump-sum payments are averaging about 140 
days.
    But we need to understand exactly what that lump-sum 
payment represents. It represents the amount of days that the 
annuitant survived in a particular month. For instance, if the 
annuitant passed away on the 5th of the month, they are 
entitled to 5 days of pay for that month.
    Mr. Farenthold. Right.
    Mr. Zawodny. The lump sum represents that 5 days of pay.
    When we get notified of the death of an annuitant, we 
immediately process the application for the death insurance 
payment, as well as getting the survivors into survivor pay so 
that they can continue their monthly payment as allotted by the 
survivor benefits.
    The final thing we do is solidify and finalize the lump-sum 
payment, which sometimes can be very little or up to a month's 
worth of pay.
    We continue to work in that area, and that goes back to 
some of the cross-training that we have done to move resources 
into those areas that need to be put higher attention to.
    Mr. Farenthold. Great.
    Let me go to Ms. Seymour.
    You are kind of the tech expert here, I guess. We're moving 
toward a paperless system. And, you know, there's a distinction 
between less paper and no paper at all, being paperless. Is a 
true paperless system doable, where you're almost entirely 
electronic? And would it help?
    Ms. Seymour. Anytime that we can eliminate paper, it helps 
move the process faster and makes the process more accurate. We 
are working with the retirement services business unit to 
understand where we can eliminate paper and in compliance with 
the rules and regulations that they use for processing 
retirement.
    There are some opportunities and there will be some 
challenges as we move through that process. So we want to make 
sure that we have targeted the opportunities first that we can 
eliminate paper soonest in that process.
    Mr. Farenthold. And I would assume you're taking an 
approach to this--obviously, you're going to have the 
exceptional cases where somebody has bounced around to a dozen 
Federal agencies over their career. But a veteran who goes to 
work for the Postal Service when they come out of the service 
and serve there till they retire is not uncommon.
    I mean, are we focusing on the easy ones first? Or are we 
getting bogged down trying to create a system that will handle 
all cases rather than, you know, starting with the easy ones 
and growing it?
    Ms. Seymour. Thank you, sir. I'm going to let Mr. Zawodny 
talk to his business priorities.
    Mr. Farenthold. OK.
    Mr. Zawodny. In the particular case of that postal employee 
you mentioned, the Postal Service and other agencies that use 
part-time or seasonal help add a complication when it comes to 
the figuring of the retirement claim.
    But let's say that same employee you mentioned did do 
service, served the country, and then came to work as a civil 
servant, stayed with that same agency for their entire career. 
That particular case could be considered a simple case.
    The problem becomes, quite often, that earlier in their 
career is, if service credit or service time was unaccounted 
for or mismanaged or not properly documented, that's where that 
missing service comes in. So, quite often, those older cases 
that you mentioned earlier that might take 6 months or 9 
months, those people waiting, it's near every time----
    Mr. Farenthold. Well, you ought to be able to get----
    Mr. Zawodny [continuing]. We're waiting for----
    Mr. Farenthold. You ought to be able to come up with a 
business process where--you've got to have the simple ones and 
the hard ones. Is it not doable to----
    Mr. Zawodny. It is.
    Mr. Farenthold [continuing]. Automate the simples ones 
first and then, you know, start growing it as you learn more?
    I talked to the programmers of the Google self-driving car. 
They've identified tens of thousands of unique driving 
situations. They start with the obvious ones, and then when 
they encounter a new one they grow the system. Is that the 
approach?
    Mr. Zawodny. That's absolutely the approach. And that's the 
approach that we've taken to drive the inventory down to where 
it is today. We've been able to segment out those less 
complicated cases and put teams of forces on those.
    And as we move into the automation of that particular 
process, we'll be able to automate those cases. And those 
exceptions where we're missing information or data to finalize 
a case will have to be----
    Mr. Farenthold. OK. Well, I've gone way over. We'll let Mr. 
Lynch get his questions in, and I've got a couple more. We'll 
do a second round after my colleague finishes here.
    Mr. Lynch. Thanks, Mr. Chairman.
    Let's just followup on the chairman's thinking there a 
little bit. Is there a uniformity to these cases that are more 
pernicious and more difficult to resolve? Are we talking about, 
as the chairman suggested, someone who's got multiple 
jurisdictions of service?
    Mr. Zawodny. Yes, sir. There are some cases where an 
individual may have worked at one agency their entire career 
and then those individuals that have gone from agency to agency 
to agency.
    Mr. Lynch. Yes. So, I do want to try to get through a 
number of questions, but what happens to a person--I mean, are 
these the cases that are going on for 6 months?
    Mr. Thissen, what happens to an employee that has to wait 6 
months? Are they in limbo? Are they hanging? Do they have no 
income if they file for their retirement and they're waiting 6 
months?
    Mr. Thissen. They get a temporary payment, but----
    Mr. Farenthold. Your mic is not on.
    Mr. Thissen. All right. Is it on now?
    Mr. Farenthold. Yes.
    Mr. Thissen. OK.
    They get a temporary payment. But, obviously, that's not 
the optimum, and it does create hardship for some of the 
members. It sure does.
    Mr. Lynch. Yes. OK.
    Ms. Melvin, you did mention that we have, in the current 
system, OPM uses I believe you said 500 different procedures, 
laws, and regulations and 80 information systems that have I 
believe you said 400 different interfaces to process retirement 
applications.
    Ms. Melvin. It's approximately that.
    Mr. Lynch. Isn't that the root of the problem here? Is that 
what we're talking about?
    Ms. Melvin. Well, I think it certainly points to a complex 
process and a complex system that they have to try to address. 
And it is part of the problem. From our standpoint, it doesn't 
make it impossible to address it, though.
    What we are looking for, from the standpoint of what OPM 
does, is to have clearly defined plans and a very detailed 
tactical approach to addressing these kinds of complexities. We 
mentioned priorities. There are priorities in terms of the 
requirements that have to be defined and how they're going to 
work through developing or acquiring the particular systems and 
how those systems would interface.
    So a number of factors that go into addressing it. Complex, 
yes, but not impossible.
    Mr. Lynch. Yes. Well, thank you.
    It just seems to me that it doesn't need to be this 
difficult. And there might actually be some savings here if we 
move away from the paper system to one that is, you know, 
automated. I'm a little surprised it's taken this long.
    You mentioned also in your remarks there was a lack of 
oversight in terms of making this transition. Who do you think 
should be--should we bring somebody in from the outside in 
terms of making sure that this transition happens? Or how would 
the oversight take place? Obviously, it's more difficult 
without having somebody overseeing this.
    Ms. Melvin. When we did our work and reported on the 
oversight issue, one of the things that we looked at were their 
investment review boards. And that would be the critical 
players in terms of a chief information officer, chief 
financial officer, whomever else would be involved, the key 
officials from the business side who make the decisions on what 
the investments are going to be, how they prioritize those. We 
continue to believe that that's necessary, in terms of having 
those key players.
    Ms. Seymour is the Chief Information Officer at OPM, and we 
would look to her as the first source of oversight relative to 
what has to be done in terms of delivering the technology 
solutions. That being said, Mr. Zawodny, in his role, you know, 
from the business side, is also critical.
    So the proper positions are there in terms of oversight. 
It's a matter of making sure that when those boards are getting 
together that they, in fact, are performing. When we looked at 
what was being done back some years ago, the board was in 
place; there was an oversight board. However, it had not been 
responding to the types of issues that--the problems and 
concerns that were being brought to it.
    So it has to be a functional board. It has to have 
functional oversight capability. And that's what we would look 
for going forward.
    Mr. Lynch. Yes. Thank you.
    I'm just concerned--as the chairman has noted, the concern 
up here is whether we've got all the low-hanging fruit, and so 
we've eliminated--I mean, you deserve to be commended. You've 
eliminated 75 percent of your backlog. The problem here is, 
though, you've got this significant lingering backlog. And if 
people keep retiring at the rate that they have been, we've got 
a--you know, we've got a possible resurgence in the size of the 
backlog, and we're back to square one at some point.
    So now is the time to try to--you know, to try to change 
over the system. I know you all have tremendous responsibility 
already. You have made commendable progress. I'm not 
criticizing. I'm just trying to see what framework gets us to 
where we need to be. We need to have sustainable progress here. 
We can't retrench every so often; we need to fix the system.
    And let me ask: How much of this is money, in terms of 
funding and--you know, we don't like the idea of just throwing 
money at a problem and expecting it to go away. That has proven 
to be a failure in the past. You've really got to spend your 
money wisely and make those important changes.
    But, Mr. Zawodny, talk to me about the resources that you 
might need.
    Mr. Zawodny. Well, Mr. Lynch, as Stated earlier, we did 
receive $2.6 million in 2014. And in the present budget for 
2015, we request an additional $2.4 million.
    Mr. Lynch. Is that--Mr. Thissen was complaining about you 
raiding the disability trust fund. Is that where you got some 
of this money?
    Mr. Zawodny. That's correct, sir. The law----
    Mr. Lynch. We can't keep doing that, though, can we?
    Mr. Zawodny. I'm sorry?
    Mr. Lynch. We can't keep doing that, right?
    Mr. Zawodny. Well, the law authorizes us to use the trust 
fund for operating expenses for retirement services. It's not--
    Mr. Lynch. Yes.
    Mr. Zawodny [continuing]. An appropriations.
    Mr. Lynch. All right. I'm just nervous about having a 
resulting unfunded liability, you know, in that fund or 
inadequate resources. Sort of robbing Peter to pay Paul. I'd 
rather not get into that situation.
    But go ahead. I interrupted you.
    Mr. Zawodny. And with the current funding that we have, we 
believe that that's going to be a sustainable amount to get us 
started on the right path.
    We have a number of initiatives. Like I mentioned, we're 
going to be releasing an RFP very shortly to solicit vendors to 
provide us an estimate on what it's going to cost to have a 
case management service started for us with a platform and 
actual case management system. Only then will we really 
understand exactly what the true cost is going to be and then 
be able to come back and properly budget for that in out-years.
    Mr. Lynch. Yes. OK.
    All right. That's all I have, Mr. Chairman. I yield back.
    Mr. Farenthold. You hit a couple of the questions I had. 
I've basically just got a couple more questions.
    Ms. Melvin, after its last major initiative resulted in 
termination of a $290 million contract, OPM switched to an 
incremental approach for its modernization.
    Have we addressed the management issues, do you think, that 
you've identified in your previous reports and your testimony 
today? Are we at a point where you think they can do it? And do 
you have any feeling as to--and I guess it's probably more of a 
question for Mr. Zawodny after you answer, but is there the 
commitment to do it?
    Ms. Melvin. We hope there is, but we have not been in to 
look at their initiatives and what they're undertaking at this 
point. We would certainly look to Ms. Seymour and Mr. Zawodny 
to be primary players in making sure that they can move 
forward, and I hope that they are. But we would need to do more 
work to really be able to provide an informed response to that.
    Mr. Farenthold. All right.
    And, then, Mr. Zawodny, I used to be a computer consultant 
in my early days, and I actually got into it when I led an 
automation process for a law firm that I was working at. That's 
what got me interested in technology.
    And what I discovered was that, among a lot of the people 
who used the technology, be they lawyers or secretaries or 
whatever, are so busy in their day-to-day operations that they 
don't want to take the time to learn a new system or 
participate in a committee or a study to figure out how to 
automate and make their job easier.
    And, you know, in today's time, most people recognize that 
a little bit of time invested in technology typically pays off 
very well.
    Is there the attitude within your work force, and does it 
go all the way up to the top, where there is a willingness to 
commit the time and the effort that may in the short term put 
you a little bit behind, you're going to have to work a little 
bit harder to go to that technology committee meeting, but in 
the long run will make your life a whole lot easier?
    Mr. Zawodny. The short answer to that is, yes, overwhelming 
enthusiasm to become more modern within the entire 
organization, from the top all the way down and back up.
    We have a number of processes already in place within 
retirement services that are an automated process, from the 
receipt of initial notification for the individual to retire, 
going through the interim pay that we mentioned earlier, 
through the calculations piece, and even to a rudimentary type 
of case management system we have.
    Our folks are attuned to using automation right now and 
welcome the opportunity to use the automation and to expand 
upon it even further in the future.
    Mr. Farenthold. And just one last question to Ms. Seymour.
    Mr. Lynch talked about 80-plus legacy systems. I mean, I'm 
assuming those are--you know, you've got some old systems that 
are probably in Fortran and COBOL and other extinct programming 
language on hardware you probably can't get parts for. Would 
that be a fair characterization of some of the stuff?
    Ms. Seymour. It's fair, yes, sir.
    Mr. Farenthold. That's got to be awfully expensive. Would 
we not be able to save some money if we moved to a modern 
system that's more, if you will, off-the-shelf or, you know, 
certainly didn't have to have custom manufactured parts with 
vacuum tubes?
    Ms. Seymour. We're not--thank you, sir. We're not quite 
that antiquated.
    But what we are doing is moving from a mainframe 
environment, most of these applications. And when we talk about 
80 applications, they're small applications that do a very 
finite set of functions and, together, form the retirement 
services system.
    So what we're doing is taking this very incremental 
approach, putting in place the case management system first, 
and then we're looking at each of those applications to make 
sure we understand the complete functionality that they perform 
and how we can move them into the modern environment.
    That gives us the opportunity for Mr. Zawodny's staff to 
experience a little bit of the capabilities----
    Mr. Farenthold. Right.
    Ms. Seymour [continuing]. Learn a little bit. And then we 
give them--you know, we build on that capability over time.
    Mr. Farenthold. I'm reminded of a--I took a computer in 
when I was doing a law firm to one of the senior partners. He 
called me up and said, ``Come get this rat thing out of my 
office,'' referring to the mouse. I hope we don't--I hope we 
don't have that.
    I don't have anything else. Mr. Lynch, did you have 
anything you wanted to followup on?
    Mr. Lynch. Well, I just want to--thank you, Mr. Chairman.
    I would just want to encourage you to try to tighten up 
what you need. You know, on this side of the dais, that's what 
we want to know--resources, technical assistance, maybe, you 
know, a third party to oversee the transition.
    I know you're both working very hard, all of you are 
working very hard, but sometimes you need sort of an honest 
broker here to--when you've got 500 different procedures and 
all these laws and regulations, you've got 80 information 
systems and 400 different interfaces, sometimes that can be 
overwhelming and you've got obvious turf concerns between 
departments. If we can have somebody else sort of be the 
umbrella group that gets all of these people corralled, you 
know, we can make a little bit more progress than we have been. 
We're going too slow right now, and that raises some concerns 
for me.
    So we want to be--we want to be helpful. And, you know, we 
just need more input in order to make sure what we're doing is 
rowing in the same direction that you all are. Thank you.
    I yield back.
    Mr. Farenthold. Great. And we made it in time for us to get 
out to votes. We're not going to hold you over.
    I join with Mr. Lynch in encouraging you to get this job 
done, get the process finished and fixed. Our Federal workers 
deserve prompt and adequate processing of their retirement 
after years of service to this country.
    Thank you very much.
    We're adjourned.
    [Whereupon, at 2:12 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
